No. 20-1262

In the

Supreme Court of the United States
MARYSUSAN WARD,
Petitioner,
v.
LOUISVILLE METRO GOVERNMENT,
Respondent.
_____________
On Petition for Writ of Certiorari to the
Kentucky Court of Appeals
_____________
REPLY BRIEF FOR THE PETITIONER
_______________
ROBYN SMITH
LAW OFFICE OF
ROBYN SMITH
Counsel of Record
4350 Brownsboro Road
Suite 110
Louisville, KY 40207
(502) 893-4569
firm@robynsmithlaw.com

J. GREGORY TROUTMAN
TROUTMAN LAW
OFFICE, PLLC
4205 Springhurst Boulevard,
Suite 201
Louisville, KY 40241
(502) 412-9179
jgtatty@yahoo.com

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES………………………….…ii
ARGUMENT IN REPLY……………………………..…1
I.

Metro advocates an unacceptably
myopic and restrictive interpretation of Batson in the context of
crafting acceptable remedies……..………2

II. The Court of Appeals’ opinion is
inconsistent with the policies of
other jurisdictions……………….…………8
III. The Kentucky Court of Appeals has
created case law at odds with the
superprecedent enunciated in
Batson………………………………………11
CONCLUSION……………………………………...…13

ii
TABLE OF AUTHORITIES
CASES:
Ashley v. State,
651 So.2d 1096 (Ala. 1994)…………………….…9
Batson v. Kentucky,
476 U.S. 79 (1986)…………………….....…passim
Carter v. Kemna,
255 F.3d 589 (8th Cir. 2001)…………………...…9
Commonwealth v. Doss,
510 S.W.3d 830 (Ky. 2016)………………….........5
Danforth v. Minnesota,
552 U.S. 264 (2008)………………………………12
Diomampo v. State,
124 Nev. 414, 185 P.3d 1031 (Nev. 2008)……….7
Dixon v. State,
2021 Nev. Lexis 18, __ P.3d __ (Nev. 2021)...…..7
Jones v. State,
343 Md. 584, 683 A.2d 520 (Md. 1996)…………7
Lewis v. State,
262 Ga. 679, 424 S.E..2d 626 (Ga. 1993)……….3
Louisville Metro Gov’t v. Ward,
610 S.W.3d 295 (Ky. 2020)………………………7
Milliken v. Bradley,
433 U.S. 267 (1977)……………………………..10

iii
Peetz v. State,
180 S.W.3d 755 (Tex.Ct.App. 2005)………..……4
People v. Luciano,
10 N.Y.3d 499, 890 N.E.2d 214, 860 N.Y.S.2d
452 (N.Y. 2008)…………………………………..10
People v. Rodriguez,
50 Cal. App. 4th 1013 (Cal. Ct. App. 1996)……..9
State v. Grim,
854 S.W.2d 403 (Mo. 1993)…………..………...…9
Steelvest, Inc. v. Scansteel Service Center, Inc.,
908 S.W.2d 104 (Ky. 1995)……………..………...8
United States v. Canoy,
38 F.3d 893 (7th Cir. 1994)………….……………9
United States v. Harris,
192 F.3d 580 (6th Cir. 1999)…………………....10
Young Soo Koo v. McBride,
124 F.3d 869 (7th Cir. 1997)…………………...10
CONSTITUTIONS, STATUTES AND RULES:
U.S. CONST, art. III, sec. 2, cl. 3...…………………….…8
U.S. CONST, amend. VI…………………...…………...…8
U.S. CONST, amend. VII………………….………………8
U.S. CONST, amend. XIV………………….…………..…2

KY. CONST, XII, §6 (1792)…………………………...8
KY. CONST, art. X § 6 (1799)…………………………8

iv
KY. CONST, art. XIII § 8 (1850)…………………….…8
KY. CONST, § 7 (1891)………………………………..8
KY. R. CIV. P. 47.02……………………………passim
OTHER RESOURCES:
Wilson, Batson v. Kentucky: Can the ‘New’
Peremptory Challenge Survive the Resurrection of Strauder v. West Virginia?, 20
Akron L.Rev. 355 (1986)……………………….…6

1
ARGUMENT IN REPLY
Our nation finds itself at a critical inflection
point regarding race relations. This is particularly
true with respect to the experiences, or the
perceived experiences, of many African-Americans
when interacting with law enforcement and the
judiciary. The Response Brief of Louisville Metro
Government (Metro) reveals the beleaguered city
remains on the wrong side of this inflection point,
given its persistence that procedural rules are
superior to pressing Fourteenth Amendment
concerns.
Metro does not deny that it committed a
violation of Batson v. Kentucky, 476 U.S. 79 (1986)
when seeking to exclude Juror 4879. Metro,
however, premises that trial courts are confined to
the two remedies this Court articulated in Batson
and that any remedy must strictly adhere to
established jury selection rules – irrespective of a
Batson violation. This position is contrary to the
holdings in other states. Maintaining the
randomness of the jury does not trump everything,
especially when a party’s actions demonstrate a
desire for anything but an impartial jury.
The operative theme of Metro’s Response rests
upon the false premise that the trial judge fully
remediated its Batson violation by denying the
subject peremptory challenge and reinstating
Juror 4879 to the venire. Metro, however, asserts
that Juror 4879 must also be subjected to the jury
draw-down procedures irrespective of the
circumstances underlying its Batson violation.
Batson does not evidence an intention to require

2
such a strict application, particularly if it renders
a remedy meaningless.
Ward agrees with the premise that “[t]he right
to a completely impartial, randomly selected jury
is coextensive with a jury selection process that is
free of racial discrimination.” Metro Response, p.
1. Maintaining such coextensive bond, however,
requires the recognition two key points: that a
Batson violation weakens the bonds of impartiality
and a violation must be met with a remedy which
fully and completely satisfies the constitutional
mandate of the Fourteenth Amendment to the
United States Constitution. Satisfaction of that
mandate must restore the structure of the bonds
of impartiality broken or compromised by a Batson
violation. The question posed here is where to
draw the line when a trial court fashions a Batson
remedy.
Metro premises the substance of its Response
Brief based upon the erroneously presumption
that the trial court’s denial of its discriminatory
peremptory challenge and seating Juror 4870
subject to the KY. R. CIV. P. 47.02 draw-down
procedure was the limit upon its remedial
authority. Batson must be read to dictate
otherwise, and the Fourteenth Amendment must
reign supreme over state procedural rules.
I. Metro advocates an unacceptably
myopic and restrictive interpretation
of Batson in the context of crafting
acceptable remedies.
Metro advocates a position which would
hamstring a trial court’s authority and discretion
to remediate a Batson violation is constrained to

3
merely restoring a wrongfully-challenged juror to
the venire panel. This restrictive view does not
comport with either the letter or spirit of Batson.
In Batson, this Court did not set the guardrails
which constrained trial courts in remediating the
discriminatory uses of peremptory challenges. 476
U.S. at 99 n. 24. The Court further articulated two
suggested means of remediating a violation. The
Court, however, did not foreclose trial courts from
implementing additional remedial measures. For
instance, the Georgia Supreme Court held in
Lewis v. State, 262 Ga. 679, 424 S.E..2d 626 (Ga.
1993) that trial courts are permitted to tailor
remedies in order to protect the rights of the
litigants. This flexibility is particularly important
if a trial court is asked to consider the totality of
the circumstances surrounding a Batson violation.
While this Court left it to the states to “best
implement” its holding, id., it did not intend to tie
the hands of trial courts to implementing only two
possible remedies.
Kentucky has not “best implemented” Batson
given its failure to alter the pre-Batson jury
selection policies. This is evident as Kentucky
adopted KY. R. CIV. P. 47.02, the rule here at issue,
in 1953, amended the rule in 1971 and 1980 but
has failed to alter either such rule or any of its
other jury selection rules since Batson.
The Court of Appeals’ opinion also
demonstrates that Kentucky has not “best
implemented” Batson by placing the necessity of
adhering to formality over the protection of
important fundamental constitutional rights. The
Court of Appeals’ opinion is inconsistent with

4
Batson because it unduly restricts trial courts from
crafting a complete remedy. Both the Court of
Appeals and Metro ignore that subjecting a
wrongfully-challenged juror to a random draw at
the conclusion of a trial risks making a Batson
remedy meaningless as it does nothing to dissuade
litigants from future discriminatory conduct. Such
rigidness also limits the ability of trial courts to
consider aggravating factors which necessitate
additional sanctions like that imposed by the trial
court in this instance.
Metro does not refute that a party who makes a
racially-motivated peremptory challenge gambles
that either the opposing party will not question the
peremptory challenge or the trial court will not
find a violation. In this instance, Metro not only
made a race-based gamble, it doubled-down on
that bet in attempting make an after-the-fact
showing of non-discriminatory grounds. Metro
cannot avoid the proposition that a litigant who
violates Batson “must cope with losing his racebased gamble.” Peetz v. State, 180 S.W.3d 755, 761
(Tex. Ct. App. 2005). In order to fully adjust a
failed race-based gamble, the purpose of a Batson
remedy must not just look to the case at hand, but
also to dissuade parties from employing future
race-based peremptory challenges. The Court
should not allow a pre-Batson state jury selection
procedure to stand as an obstacle to fully
remediating a Batson violation based upon the
existing facts and circumstances.
Metro’s insistence upon the adherence to
impartiality is ironic given the facts and
circumstances. In its Response, Metro cites

5
Commonwealth v. Doss, 510 S.W.3d 830, 836 (Ky.
2016) for the proposition that litigants “have the
right to be tried by a jury whose members are
selected by nondiscriminatory criteria.” Yet, the
parties are before the Court because Metro
obviously sought to empanel a jury which was
selected based upon discriminatory criteria. The
Court of Appeals’ opinion shows that Metro’s
violation of Batson was not even a close call for the
trial court. Metro then compounded its violation by
trying to articulate additional non-discriminatory
reasons after the fact.
Contrary to Metro’s suggestion, Ward does not
espouse that a trial court’s discretion to remediate
a Batson violation is limitless or open-ended. Ward
also does not eschew the concept of randomness in
the jury selection process. Ward, however, does not
subscribe to Metro’s normative position that trial
courts must blindly adhere to the strictures of a
state procedural rule when a Batson violation has
occurred, especially if the violation is egregious.
Metro dwells on the touchstone necessity of
maintaining randomness in the jury selection
process by focusing on the policies underlying KY.
R. CIV. P. 47.02. Metro, however, approaches the
question as if a Batson violation were not at issue.
Ultimately, Metro usurped the normal jury
selection paradigm when it sought to wrongfully
exclude Juror 4879. At that point, the
constitutional
principles
of
Batson
take
precedence in order to rebalance the scales. The
normal jury selection protocol must become
subservient at that point until the scales are
balance. The manner in which a trial court

6
remedies a Batson violation must be done on a
case-by-case basis by trial courts which are in the
best position to determine the gravity of a
violation. Curtailing a trial court’s ability to
fashion an appropriate remedy based upon the
circumstances does not foster judicial efficiency.
Batson is clear that the trial court could have
revoked Metro’s wrongfully-exercised peremptory
challenge and seated Juror 4879 if the parties had
not opted to seat alternate jurors. The fact that the
parties opted to allow alternate jurors should not
hamstring a trial court from imposing the same
remedy irrespective of the manner of randomly
selecting alternate jurors.
Metro, however,
espouses that
“[t]he
appropriate remedy of a Batson violation
eliminates the effects of the discriminatory strike,
such that the impartial jury selection process is
restored.” Metro Response, p. 14. This assertion
rests upon the presumption that such step fully
remedies a Batson violation. But that really is not
the case here. All the trial court did is countervail
the force of Metro’s race-based gamble. The trial
court did not abuse its discretion under Batson
given the circumstances when placing Juror 4879
on the jury as such step fully eliminated Metro’s
race-based gamble.
Again, “Batson’s force, if any, will lie in the
deterrent effect it will have upon prosecutors.”
Wilson, Batson v. Kentucky: Can the ‘New’
Peremptory Challenge Survive the Resurrection of
Strauder v. West Virginia?, 20 Akron L.Rev. 355,
364 (1986). If Batson is to have any meaning today,
trial courts must be given sufficient flexibility and

7
discretion to fashion remedies sufficient in depth
and breadth to both ameliorate the effects of a
violation and deter the improper use of future
peremptory challenges. That is precisely what the
trial court did in this instance and precisely what
the Kentucky Court of Appeals failed to accept.
A Batson violation is structural in nature in
that it effects the entire trial process. Dixon v.
State, 2021 Nev. Lexis 18, __ P.3d ___ (Nev. 2021),
citing Diomampo v. State, 124 Nev. 414, 423, 185
P.3d 1031, 1037 (Nev. 2008). Once a Batson
violation occurs, the standard procedure for jury
selection must become subservient to the
constitutional mandate violations be remediated.
The Court should accordingly use this case as the
opportunity to address the extent of trial courts’
discretion to fashion a Batson remedy.
Metro misses the point that deterrence is one of
Batson’s principal purposes. Restricting trial
courts to only employ the two remedies articulated
in Batson offers no deterrent effect. This is
especially true when the party challenging the
remedy cannot show prejudice from seating an
improperly-challenged juror. Jones v. State, 343
Md. 584, 604, 683 A.2d 520, 529 (Md. 1996). The
Court of Appeals noted that Metro did not poll the
jury. See Louisville Metro Gov’t v. Ward, 610
S.W.3d 295, 306 (Ky. 2020). Metro thus cannot
demonstrate that Juror 4879 was among the jurors
who voted against it. This case presents an
example of why the Court needs to provide much
needed guidance regarding Batson remedies.

8
II. The Court of Appeals’ opinion is
inconsistent with the policies of
other jurisdictions.
Few concepts are more deeply rooted in our
jurisprudence than the right to a trial by jury. The
Framers mandated such right in Article III, sec. 2,
cl. 3 of the Constitution in criminal cases (“The
trial of all crimes, except in cases of impeachment,
shall be by jury…”). The Framers further
reiterated the right to an impartial jury trial in
criminal cases when crafting the Sixth
Amendment and then extended that right to
certain civil trials in the Seventh Amendment.
The fundamental principle of the right to a trial
by jury is also embodied deeply into Kentucky’s
jurisprudence. See Steelvest, Inc. v. Scansteel
Service Center, Inc., 908 S.W.2d 104, 106 (Ky.
1995). Indeed, the present Kentucky Constitution,
adopted in 1891, uses the words “sacred” and
“inviolate” to describe the importance of the right
to a jury trial.1 See KY. CONST. § 7. Batson assured
that such right means that jury selection will not
be tainted by racial animus or stereotypes. The
Kentucky Court of Appeals, however, has placed
litigants in a disparate position vis-à-vis litigants
in other states. Metro thus errs in asserting that
the Court of Appeals’ insistence on adhering to
procedure is consistent with the policies of other
states.
Kentucky carried over such provision from Article XIII,
§ 8 of the 1850 Kentucky Constitution. This carried over
from Article X, § 6 of the 1799 Kentucky Constitution which
in turn originated in Article XII, § 6 of the 1792 Kentucky
Constitution.
1

9
In Batson, this Court determined that trial
courts were at liberty to reinstate an improperlychallenged juror to the venire. 476 U.S. at 99-100
n. 24. The Court, however, did not address
whether this liberty extended to immunizing an
improperly-challenged juror from a subsequent
draw-down procedure to determine the identity of
alternate jurors. This case presents a novel
question before the Court. Certiorari is necessary
to determine the issue because some jurisdictions
hold that Batson applies to the selection of
alternate jurors [see e.g., Ashley v. State, 651 So.2d
1096, 1099 (Ala. 1994)] and some hold that it does
not apply [see e.g., United States v. Canoy, 38 F.3d
893, 899 n.6 (7th Cir. 1994); Carter v. Kemna, 255
F.3d 589, 592-93 (8th Cir. 2001)].
The cases cited by the parties demonstrate that
different states identify alternate jurors based
upon different procedures. For instance, states like
California and Missouri specifically select
alternate jurors separate from the petit jury panel.
See People v. Rodriguez, 50 Cal. App. 4th 1013
(Cal. Ct. App. 1996); State v. Grim, 854 S.W.2d 403
(Mo. 1993). States like Kentucky, however, do not
identify alternate jurors until the time to submit
the case to the jury. Batson would clearly allow
trial courts in states like California or Missouri to
directly reinstate an improperly-challenged juror
to the venire and then have such juror decide the
case. The Kentucky Court of Appeals, however,
believes that a similarly-situated juror should be
subject to the possibility of a subsequent random
elimination after being the subject of a
discriminatory exclusion attempt.

10
The harm resulting from a Batson violation
taints the entire jury selection process. On this
point, United States v. Harris, 192 F.3d 580, 58788 (6th Cir. 1999) observes that:
the
harm
inherent
in
a
discriminatorily chosen jury inures
not only to the defendant, but also to
the jurors not selected because of
their race, and to the integrity of the
judicial system as a whole” and “the
process of jury selection - even the
selection of alternate jurors - is one
that affects the entire conduct of the
trial.
For purposes of the Batson constitutional
mandate, it should make no difference whether
alternate jurors are chosen at the outset of jury
selection or at the conclusion of a trial.
Above all, a key concept underlying Batson is
that any remedy for a constitutional violation
ought to take as its touchstone that the nature of
the remedy must be determined by the character
and scope of the violation. See Milliken v. Bradley,
433 U.S. 267, 280, (1977). Trial courts must be
given the flexibility to consider the particulars of
the case, the egregiousness of the violation, and
any other factor they may find appropriate. See e.g.
Young Soo Koo v. McBride, 124 F.3d 869, 873 (7th
Cir. 1997); People v. Luciano, 10 N.Y.3d 499, 890
N.E.2d 214, 219, 860 N.Y.S.2d 452 (N.Y. 2008).
The Court should thus accept review of this
case to determine whether Batson applies to jury

11
selection procedures concerning the identification
of alternate jurors, and particularly whether the
authority of trial courts extend to insulating an
improperly-challenged juror from a subsequent
random draw-down procedure to select alternates.
The current difference of opinion on this question
brings this case squarely within the ambit of
Supreme Court Rule 10(b) and (c).
III. The Kentucky Court of Appeals has
created case law at odds with the
superprecedent
enunciated
in
Batson.
Metro is incorrect in arguing that the subject
dispute involves merely an issue of state law.
Principally, Metro’s argument rests upon several
false premises. Just as critically, though, Metro
ignores the root of Batson, the Fourteenth
Amendment of the U.S. Constitution, which is
supreme to all state laws or procedural rules that
may ever seem to conflict with it.
Metro erroneously surmises that this Court set
forth two, and only two, available remedies in
Batson. In fact, this Court was quite clear that it
“express[ed] no view” on the question of which
remedies were appropriate. 476 U.S. at 99 n. 24.
This Court in no way foreclosed trial courts from
considering remedies beyond discharging the
entire venire or reinstating the improperlychallenged juror. This Court also in no way
foreclosed trial courts from fashioning remedies
based upon the particular facts and circumstances
present in each case. Thus, the two remedies
mentioned in Batson are not exclusive and did not
constitute the outer boundary of the trial court’s

12
discretion when deciding to exempt Juror 4879
from possible selection as an alternate.
Metro also erroneously presumes this Court
vested state appellate courts with unfettered
discretion to set acceptable Batson remedies. Ward
does not disagree with the basic premise espoused
by Metro, relying upon Danforth v. Minnesota, 552
U.S. 264 (2008), that states must adhere to the
“minimum requirements” of federal law. The
parties obviously disagree, however, on the extent
of such “minimum requirements” with respect to
remedying a Batson violation. Such determination
must be viewed through the prism that the
sufficiency of a Batson remedy lies in whether it
serves the dual purpose of vindicating the rights of
the affected litigant and improperly-excluded juror
and deterring future violations. Only then does a
state’s remedial policies satisfy the “minimum
requirements” of Batson.
In this instance, the Court of Appeals has
constrained trial judges from sufficiently
remedying a Batson violation. Such constraint
allows a party to improperly challenge a juror on
the basis of race and then play the odds that such
juror is eliminated when selecting alternates. This
policy incentivizes parties to employ race-based
peremptory challenges because they bear little
risk in doing so. This reality demonstrates that the
Court of Appeals’ insistence on adhering to KY. R.
CIV. P. 47.02 without regard to the existence of a
Batson violation is not sufficient to satisfy Batson’s
constitutional
mandate.
Metro’s
Response
highlights why this Court should give more clarity

13
to the scope of Batson remedies, as well as a state’s
power to constrain Batson remedies with
procedural rules.
CONCLUSION
Ward’s petition for a writ of certiorari should be
granted for the reasons both set forth above and in
her Petition.
Respectfully submitted,
ROBYN SMITH
LAW OFFICE OF
ROBYN SMITH
Counsel of Record
4350 Brownsboro Road
Suite 110
Louisville, KY 40207
(502) 893-4569
firm@robynsmithlaw.com

May 2021

J. GREGORY TROUTMAN
TROUTMAN LAW
OFFICE, PLLC
4205 Springhurst Boulevard
Suite 201
Louisville, KY 40241
(502) 412-9190
jgtatty@yahoo.com
Co-counsel for Petitioner

